Department of Homeland Security
   Office of Inspector General

                    Review of the 

           Department of Homeland Security’s 

              Master List of Recovery Act 

                 Contracts and Grants
 





      American Recovery and Reinvestment Act of 2009
 





OIG-10-102                                                July 2010
                                                        Office ofInspector General

                                                        U.S. Department of Homeland Security
                                                        Washington, DC 20528




                                                       Homeland
                                                       Security

MEMORANDUM FOR:	             Thomas Mason
                             American Recovery and Reinvestment Act Coordinator
                             Department of Homeland Security

FROM:	                       Anne L. Richards ~ ;(~J
                             Assistant Inspector General for Audits

SUBJECT:	                    Final Letter Report: Review ofthe Department of
                             Homeland Security's Master List ofRecovery Act
                             Contracts and Grants

At the request of the Recovery Accountability and Transparency Board, we reviewed the
Department of Homeland Security's (DHS) Master List of Recovery Act Contracts and
Grants to determine whether the contract and grant award amounts in the Master List
were accurate. With minor exceptions, the DHS Master List of Recovery Act Contracts
and Grants was accurate for the period ending March 31,2010.

We recommend that DHS implement controls to ensure that updates to the Master List
are made correctly. You concurred with the recommendation. We consider the
recommendation resolved and open and will close it when implementation is complete.

Consistent with our responsibility under the Inspector General Act, as amended, we are
providing copies of our report to appropriate congressional committees with oversight
and appropriation responsibility over the Department of Homeland Security. The report
will be posted on our website.

Should you have any questions, please call me, or your staff may contact Mr. Roger
LaRouche, Director of Recovery Act Audits, at (202) 254-4100.
Background
The American Recovery and Reinvestment Act of 2009 (Recovery Act) made available to
federal agencies approximately $787 billion for preserving and stimulating economic
growth in the United States. Section 1512 of the Recovery Act requires recipients of this
Federal financial assistance to submit quarterly reports on the amount of funds received
and expended, projects sponsored, and jobs created or retained. According to
Recovery.Gov, the U.S. Government’s official website for access to Recovery Act
spending, Federal agencies distributed $275 billion through grants, contracts, and loans as
of March 31, 2010.

To improve the quality of data reported by recipients, the Office of Management and
Budget (OMB) instructed1 Federal agencies to submit a comprehensive list of all awards
subject to the reporting requirement in Section 1512 of the Recovery Act. Federal
agencies must submit the list to the Recovery Accountability and Transparency Board to
assist the Board in its oversight of Recovery Act funds. On April 16, 2010, the Board sent
to us a copy of the Department of Homeland Security’s (DHS) Master List of Recovery
Act awards for the quarter ending March 31, 2010, and said it “would be interested in
learning of any data quality issues you may discover with regard to this list.”

DHS updated the Master List it initially submitted to the Board and forwarded a copy of
the corrected list to us. The updated DHS list of April 26, 2010, contained 458 contracts
and grants with a total value of $1,565,227,328.

Results of Review
The DHS Master List of Recovery Act Contracts and Grants was generally accurate for
the period ending March 31, 2010. The Master List included all awards. However, our
review identified 11 discrepancies in which recipient award amounts differed from
amounts reported by DHS components or by recipients. For example, the Coast Guard
awarded a recipient five contracts totaling $525,012; however, the contract amounts
reported by DHS totaled $499,386 and did not reflect contract modifications. DHS
Recovery Act officials made adjustments to the list based on discussions with our office.

According to a DHS official, the main reasons for the discrepancies were that they did
not have the supporting documentation to compare against the amounts reported to them
by DHS components and that they were not always aware of subsequent modifications
components made to the recipient awards.



1
 Memorandum 10-08, dated December 18, 2009, provides guidance to Federal agencies to improve the
quality of data reported and establishes a process for Federal agencies to calculate control totals for the
number of awards issued and the total dollars associated with such awards. Memorandum 10-14, dated
March 22, 2010, instructs Federal agencies to submit on a systematic basis a detailed master list of all
awards issued to include award date, recipient, and amount.



                                                      1

Recommendation

We recommend that DHS implement controls to ensure that updates to the Master List of
Recovery Act contracts and grants are accurate.

Management Comments and OIG Analysis
In response to a preliminary version of this report, DHS advised that they have taken
steps to mitigate the issues associated with compiling and updating the Master List.
Specifically, DHS established a data quality working group of members from applicable
DHS components. The group meets bi-monthly to address gaps in reporting on all data
elements and developing potential solutions. DHS also plans to build a data warehouse
of recipient information based on weekly inputs of all necessary data fields from the DHS
components. DHS will be able to automatically run reports on the data fields which will
eliminate the type of errors that previously occurred during manual compilation of the
master list.

We consider the recommendation resolved, but not implemented. Please provide a
response to this memorandum within 30 days on the status of implementation of your
corrective actions.




                                           2
 

Appendix A
Purpose, Scope, and Methodology


Our objective was to determine whether the contract and grant awards in the Master List
were complete and accurate. To accomplish our objective, we:

     9	 	 Reviewed OMB guidance in M-10-08 and M-10-14;

     9	 	 Discussed with a DHS Recovery Act official the process used for compiling the
         Master List;

     9	 	 Examined DHS updates to the March 31, 2010, list;

     9	 	 Compared Master List awards for selected grants to grant awards;

     9	 	 Compared Master List awards for contracts and grants with awards reported by
         recipients in Recovery.Gov and with award amounts in weekly status reports
         submitted by DHS components.

We performed our review in May and June 2010 in Washington D.C. We conducted our
review in accordance with the "Quality Standards for Inspections" issued by the President's
Council on Integrity and Efficiency, currently known as the Council of the Inspectors
General on Integrity and Efficiency.

We appreciate the cooperation by DHS management and staff in providing the
information and access necessary to accomplish this review.




                                             4

Appendix B
Major Contributors to this Report


                    Roger LaRouche, Director
                    William Gillies, Audit Manager
                    Jerome Fiely, Desk Officer
                    Kendra Loper, Auditor




                                        5

Appendix C
Report Distribution


                      Department of Homeland Security

                      Senior Counselor to the Secretary
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                             6

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
